Memorandum from the Office of the Inspector General



August 15, 2005

Tom D. Kilgore, ET 12A-K

TRANSMITTAL MEMORANDUM – INSPECTION 2005-523I – REVIEW OF TVA'S ETHICS
REQUIREMENTS/PRACTICES AND INDUSTRY BEST PRACTICES



Attached is the subject presentation for your review. As discussed with you on August 12,
2005, this inspection is being issued for informational purposes only. Therefore, no
response is necessary.

Information contained in this report may be subject to public disclosure. Please advise us of
any sensitive information in this report which you recommend be withheld.

If you have any questions, please contact Gregory C. Jaynes, Deputy Assistant Inspector
General, Inspections, at (423) 751-7821 or me at (865) 632-6309. We appreciate the
courtesy and cooperation received from your staff during this review.




Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

GCJ:SDB
Attachment
cc (Attachment):
     Richard W. Moore, ET 4C-K
     Anda A. Ray, SP 6D-C
     Ellen Robinson, ET 12A-K
     D. LeAnne Stribley, ET 12A-K
     OIG File No. 2005-523I
      Review of TVA's Ethics
    Requirements/Practices and
      Industry Best Practices

           Inspection 2005-523I
             August 12, 2005


Project Team
Lisa H. Hammer


                                  0
Federal Guidance
The U.S. Office of Governmental Ethics (OGE) provides guidance for federal employees.
Specifically, the OGE:
 Provides standards of ethical conduct for federal employees (5 CFR Part 2685)
 Conducts on-site ethics program reviews* of headquarters and regional offices
  to determine whether an agency has an effective ethics program tailored to its mission.
  These reviews include:
      Ethics program structure and staffing
      Public financial disclosure
      Ethics education and training
      Ethics counseling and advice
      Outside employment and activities
 Provides assistance in maintaining effective ethics programs and providing advice and
  guidance on the Standards of Conduct for Employees of the Executive Branch.


Any agency wishing to supplement OGE standards must obtain concurrence from
the OGE.

*The OGE audited TVA’s ethics program earlier this year; however, TVA has not yet received the results of the audit.

     Office of the Inspector General
     Audit 2005-523I                                                                                              1
Communication of TVA Ethics
 TVA employees are provided a “Synopsis of Standards of Ethical
  Conduct” as provided by the OGE during their new employee orientation.
 TVA offers annual ethics training to all TVA employees.
     TVA’s ethics training is only required for designated employees
         All Officers
         All employees filing financial disclosure reports
         Other employees designated by their organizations.
     Approximately 2,334 (18.3% ) of 12,742* TVA employees took ethics
      training last year.




    * Number of employees as of September 30, 2004.


   Office of the Inspector General
   Audit 2005-523I                                                         2
Methods of Reporting Complaints
OGE requires in 5 CFR 2635.101(B) Section 11 that “Employees shall disclose
waste, fraud, abuse, and corruption to appropriate authorities.” Formal methods
of reporting complaints at TVA include:
 OIG Hotline – Complaints related to fraud, management issues, and
   miscellaneous issues.
 Human Resources – Health/Safety, EEOC, and miscellaneous issues.
 OGC - Consults on Ethics issues and refers violations to the OIG.
 Concerns Resolution Program (CRP) for TVAN employees/contractors
    The Program provides an alternate avenue for the resolution of differing views
     and opinions related to the safe operation of TVAN plants.
        CRP staff present at each nuclear facility.
        NRC encourages employees raise concerns with TVA first.




   Office of the Inspector General
   Audit 2005-523I                                                                    3
Best Practices vs. TVA Observations
We identified the following 12 elements of a best practices Ethics Program:
1. Vision Statement - defines the long-term state for the organization.
      TVA has defined its Vision Statement as “Achieving excellence in corporate performance and
      public service for the good of the people of the Tennessee Valley ”
2. Values Statement - defines the general principles of required behavior.
      TVA has adopted seven specific values: (1) Integrity, (2) Respect for the Individual, (3)
      Accountability, (4) Teamwork, (5) Innovation and Continuous Improvement, (6) Honest
      Communication, and (7) Flexibility.
3. Organizational Code of Ethics - defines what is expected and required.
      TVA provides the Code of Ethics to all new employees at New Employee Orientation.
4. Ethics Officer - Ensures that the Ethics Program is in place and functioning.
      As required by the OGE, TVA has a Designated Agency Ethics Officer (DAEO).
5. Ethics Committee - Oversees the Ethics initiative.
      Currently, TVA does not have an Ethics committee.
6. Ethics Communication Strategy - Ensures that employees have information needed.
      TVA’s Ethics communication strategy is limited to providing (1) the Code of Ethics to new
      employees and (2) annual Ethics training, which is offered, but not required for all employees.
7. Ethics Training - Teaches employees what the company requires.
      TVA offers annual Ethics training to all employees. However, only certain designated employees
      are required to complete the training.

    Office of the Inspector General
    Audit 2005-523I                                                                                4
Best Practices (continued)
8. Ethics Help Line – Provides guidance and interpretation of the Ethics policy.
      TVA’s DAEO is accessible to interpret TVA’s Ethics policy.
9. Measurements and Rewards - Assesses and rewards Ethical conduct.
       Currently, TVA does not assess or reward Ethical conduct.
10. Monitoring and Tracking System - Assesses the extent to which employees accept
    organizational values and policies.
       While TVA does provide training, not all employees complete the training. In addition, the
       training module does not track employee answers in order to gather information on specific
       areas where employees may not understand the policy.
11. Periodic Evaluation - Assesses the effectiveness of the Ethics policy.
       TVA’s Cultural Health Index (CHI) measures TVA's progress in achieving the Critical
       Success Factors related to improving the TVA work culture. The CHI focuses on making
       Winning Performance and the Winning Behaviors a way of life at TVA, as well as helping to
       promote a fully engaged TVA workforce.
12. Ethical Leadership - Sets the tone and defines the Ethics standards.
       Best practice suggests that corporate compliance will only be a high priority if top
       management take significant and visible steps to inform, train, monitor, and discipline
       employees concerning Ethical standards. TVA could take more significant and visible steps
       in communicating that Ethics standards are a high priority.



    Office of the Inspector General
    Audit 2005-523I                                                                                 5
Best Practices in Ethics Hotlines
We identified the following Best Practices related to Ethics Hotlines:
 Protects anonymous callers from reprisal (required by Sarbanes-Oxley).
 Offers case management capabilities for tracking investigation (required by
  Sarbanes-Oxley).
 Toll-free access 24 hours a day/seven days a week.
 One hotline to handle all types of complaints.
 Externally maintained hotline (versus internal hotline).
 Visible support from top management.
 Recognition of positive performance (rewards).
 Measuring and evaluating the hotline program re: future direction.
 Communication of the hotline’s purpose including acceptable and unacceptable
  behaviors, how to recognize unethical or illegal activity, and what to do when they
  see it.
 Hotline should be communicated to vendors and the public as well as employees.




    Office of the Inspector General
    Audit 2005-523I                                                                     6
